      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




March 10, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Head Start Health and Safety Standards at Community Action for
               Improvement, Inc. (A-04-09-03531)


Attached, for your information, is an advance copy of our final report on Head Start health and
safety standards at Community Action for Improvement, Inc. (the Grantee). We will issue this
report to the Grantee within 5 business days. The Administration for Children and Families,
Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750 or
through email at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-09-03531.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303



March 18, 2010

Report Number: A-04-09-03531

Mr. Jerome Anderson
Executive Director
Community Action for Improvement, Inc.
1380 Lafayette Parkway
LaGrange, GA 30241

Dear Mr. Anderson:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Head Start Health and Safety Standards at
Community Action for Improvement, Inc. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
John Drake, Audit Manager, at (404) 562-7755 or through email at John.Drake@oig.hhs.gov. Please
refer to report number A-04-09-03531 in all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Jerome Anderson


Direct Reply to HHS Action Official:

Ms. Carlis V. Williams
Regional Administrator
Administration for Children and Families
U.S. Department of Health & Human Services
61 Forsyth Street, Suite 4M60
Atlanta, GA 30303
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF HEAD START
     HEALTH AND SAFETY
  STANDARDS AT COMMUNITY
ACTION FOR IMPROVEMENT, INC.




                    Daniel R. Levinson
                     Inspector General

                       March 2010
                      A-04-09-03531
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                                   EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

Community Action for Improvement, Inc. (the Grantee), provides early learning services to
children aged 6 weeks to 5 years and their families through a variety of programs at 14 facilities
in west central Georgia. For program year April 1, 2008, through March 31, 2009, OHS
awarded approximately $7.3 million in Federal Head Start funds to the Grantee to provide
services to 992 children. On July 2 and September 16, 2009, the Grantee received a total of
$779,689 in Recovery Act funding.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
regulations on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee generally complied with Federal and State regulations on ensuring the health and
safety of children in its care. However, the Grantee did not fully comply with Federal and State
regulations in the following areas:

      The files on 2 of the Grantee’s 232 employees did not contain evidence of criminal
       record checks. The files on the 230 remaining employees contained the required
       documentation.

      The Grantee’s 14 childcare facilities did not meet all Federal Head Start and State
       regulations on protecting children from unsafe materials and equipment.

These deficiencies occurred because the Grantee did not consistently follow its existing procedures
to ensure that it complied with Federal and State health and safety regulations. The Grantee’s
failure to consistently comply with these regulations jeopardized the health and safety of children
in its care.




                                                 i
RECOMMENDATIONS

We recommend that the Grantee consistently follow its existing procedures to ensure that:

      all employee criminal record checks are completed and employee files contain evidence
       of the checks;

      all electrical outlets are covered with protective caps, fire extinguishers are inspected
       annually, and first aid kits are complete and current;

      all unsafe materials and equipment are stored in locked areas out of the reach of children;
       and

      all necessary repairs are completed.

GRANTEE COMMENTS

In its comments on our draft report, the Grantee agreed with our recommendations and described
its actions to address the deficiencies that we identified. The Grantee’s comments are included
as Appendix B.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Federal Head Start Program...........................................................................1
              Federal and State Regulations for Head Start Grantees.................................1
              Community Action for Improvement, Inc . . . . .............................................1
              Office of Inspector General Audits................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope .............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          CRIMINAL RECORD CHECKS..............................................................................3
               Federal and State Regulations........................................................................3
               Grantee’s Compliance With Criminal Record Check Regulations................4

          MATERIAL AND EQUIPMENT SAFETY .............................................................4
              Federal and State Regulations........................................................................4
              Grantee’s Compliance With Material and Equipment Safety Regulations ...5

          INCONSISTENTLY FOLLOWED PROCEDURES................................................8

          RECOMMENDATIONS ..........................................................................................8

          GRANTEE COMMENTS .........................................................................................9

APPENDIXES

          A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT SAFETY
              REGULATIONS

          B: GRANTEE COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal and State Regulations for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, and safety of all Head Start facilities. These regulations also
specify that facilities used by Head Start grantees for regularly scheduled, center-based activities
must comply with State and local licensing regulations. Alternatively, if State and local
licensing standards are less stringent than the Head Start regulations or if no State licensing
standards are applicable, grantees must ensure that their facilities comply with the Head Start
Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

Pursuant to Georgia law and code (Official Code of Georgia Annotated §§ 20-1A-2 and
20-1A-4) and Georgia Rules and Regulations, chapter 591-1-1-.01), only childcare centers that
charge a fee are required to be licensed. However, voluntarily licensed facilities must follow the
provisions of the State regulations, as enforced by Bright From the Start: Georgia Department of
Early Care and Learning. A grantee may have some Head Start facilities that are licensed and
other facilities that are not licensed. Of the 14 Head Start facilities operated by Community
Action for Improvement, Inc. (the Grantee), 7 were licensed.

Community Action for Improvement, Inc.

The Grantee is a private, nonprofit community action agency, which provides services to address
the needs of low-income people through education, childcare, and other programs. The Grantee
provides early learning services to children aged 6 weeks to 5 years and their families through a



                                                 1
variety of programs at 14 facilities in west central Georgia. The Grantee has received Head Start
funding since 1965. For program year April 1, 2008, through March 31, 2009, OHS awarded
approximately $7.3 million in Federal Head Start funds to the Grantee to provide services to 992
children. On July 2 and September 16, 2009, the Grantee received a total of $779,689 in
Recovery Act funding.

Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
regulations on ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records and facilities as of August 2009. To gain an
understanding of the Grantee’s operations, we conducted a limited review of internal controls as
they related to our audit objective.

We performed our fieldwork from August 17 through August 21, 2009, at the Grantee’s
administrative office in LaGrange, Georgia, and at its 14 childcare facilities in surrounding
communities.

Methodology

To accomplish our objective, we:

          selected the Grantee based on prior risk analyses and discussions with ACF officials;

          reviewed Federal and State laws and regulations related to Federal grant awards and the
           Head Start program;

          reviewed Grantee policies and procedures;

          interviewed the Grantee’s executive director, Head Start director, transportation manager,
           and independent auditor;

          reviewed the Grantee’s files on all 232 current Head Start employees; 1

1
    The 232 current employees were partially or fully funded by the Head Start grant award.


                                                           2
      reviewed the Grantee’s licenses and documentation of fire inspections;

      visited the Grantee’s 14 childcare facilities; and

      discussed our preliminary findings with the Grantee.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Grantee generally complied with Federal and State regulations on ensuring the health and
safety of children in its care. However, the Grantee did not fully comply with Federal and State
regulations in the following areas:

      The files on 2 of the Grantee’s 232 employees did not contain evidence of criminal
       record checks. The files on the 230 remaining employees contained the required
       documentation.

      The Grantee’s 14 childcare facilities did not meet all Federal Head Start and State
       regulations on protecting children from unsafe materials and equipment.

These deficiencies occurred because the Grantee did not consistently follow its existing
procedures to ensure that it complied with Federal and State health and safety regulations. The
Grantee’s failure to consistently comply with these regulations jeopardized the health and safety
of children in its care.

CRIMINAL RECORD CHECKS

Federal and State Regulations

Pursuant to section 648A(g) of the Head Start Act (42 U.S.C. § 9843a(g)), a Head Start grantee
may not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State,
tribal, or Federal criminal record check covering all jurisdictions where the grantee provides
Head Start services to children; (2) a State, tribal, or Federal criminal record check as required by
the law of the jurisdiction where the grantee provides Head Start services; or (3) a criminal
record check as otherwise required by Federal law.

Georgia Rules and Regulations, chapter 591-1-1-.09, state that “The director and employees of a
center must submit to criminal records checks in connection with any application for a license
and before a person may become a director or an employee in a center. No person having an
unsatisfactory criminal records check determination may be a director or employee of a center.”



                                                 3
Grantee’s Compliance With Criminal Record Check Regulations

The files on 2 of the Grantee’s 232 employees did not contain evidence of completed criminal
record checks. The file on a health specialist hired April 20, 2009, showed that the Grantee had
requested a criminal record check but had not received a response. The file on a teacher’s
assistant hired August 17, 1998, showed that the Grantee had never requested a criminal record
check.

By not ensuring that all employees who supervised or had routine unsupervised contact with
children had cleared a criminal record check, the Grantee potentially jeopardized the safety of
children in its care.

We notified the Grantee of this deficiency at the time of our visit, and the Grantee obtained the
missing criminal record checks.

MATERIAL AND EQUIPMENT SAFETY

Federal and State Regulations

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, and safety of all Head Start facilities, materials, and equipment. The
regulations (45 CFR § 1304.53(a)) require, among other things, that:

      approved, working fire extinguishers be readily available;

      exits be clearly visible and evacuation routes be clearly marked and posted;

      playground equipment and surfaces be maintained to minimize the possibility of injury to
       children;

      electrical outlets accessible to children prevent shock through the use of child-resistant
       covers, child-protection outlets, or safety plugs; and

      indoor and outdoor premises be kept free from hazardous conditions.

Furthermore, Head Start regulations (45 CFR § 1304.22(f)) require that first aid kits be readily
available, well supplied, restocked, and inventoried at regular intervals.

Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or stringent than the Head Start regulations or if no State or local licensing
standards are applicable (as in the case of nonlicensed facilities), grantees must ensure that their
facilities comply with the Head Start Program Performance Standards related to health and safety
found in 45 CFR § 1304.53(a).




                                                 4
Georgia Rules and Regulations, chapter 120-3-3-.04, require compliance with National Fire
Protection Association (NFPA) standards for fire extinguishers, which include the requirement
that portable fire extinguishers be inspected at least annually (NFPA 10 § 7.3.1.1.1). In addition,
NFPA 10 § 7.2.4.4 requires that inspection tags be attached to fire extinguishers.

Georgia Rules and Regulations, chapter 591-1-1, also require that:

          centers be kept clean, free of debris, and in good repair;

          unused electrical outlets have protective caps;

          heating and cooling equipment be protected to prevent access by children;

          potentially hazardous equipment, materials, and supplies be stored in a locked area;

          premises be free from hazardous plants and shrubs;

          playground equipment be regularly maintained to be free from rust and splinters;

          playgrounds be kept clean and free from litter and hazards;

          outside storage areas be locked or separated from children by a barrier;

          playground fencing material not present a hazard to children; and

          climbing and swinging equipment be anchored and have a resilient surface beneath
           the equipment, including an adequately maintained fall zone to ensure continued
           resiliency.

Grantee’s Compliance With Material and Equipment Safety Regulations

The Grantee’s childcare facilities did not meet all Federal Head Start and State health and safety
regulations on protecting children from unsafe materials and equipment. We noted the following
deficiencies at the Grantee’s 14 facilities, and we discussed the deficiencies with the facility
managers on duty during our visits. In some instances, the facility managers took immediate
steps to address our concerns.

Franklin (State licensed, visited August 18, 2009)

          Fire extinguishers, which are required to be inspected annually, did not have current
           inspection tags.

          Poison ivy was growing on the playground fence (Appendix A, Photograph 1).




                                                 5
Greenville (not State licensed, visited August 18, 2009)

          First aid kits contained expired medications.

          Electrical outlets in one classroom and the cafeteria lacked protective caps.

          The roof over an outdoor walkway was leaking, leaving the concrete walkway wet
           and slippery. The roof had a small tree growing on it and appeared unstable
           (Appendix A, Photograph 2).

Hogansville (not State licensed, visited August 18, 2009)

          The fire extinguisher was not inspected annually as required, but it was inspected on
           the morning of our visit.

          An unlocked closet accessible to children contained liquid bleach, a hazardous
           chemical (Appendix A, Photograph 3).

Verona Rosser (not State licensed, visited August 18, 2009)

          Fire extinguishers did not have current inspection tags. The last inspection was
           performed on February 25, 2008, about 1½ years before our visit (Appendix A,
           Photograph 4).

          Exits and evacuation routes were not clearly marked.

          Ceiling tiles were sagging and water stained and appeared to be moldy (Appendix A,
           Photograph 5).

          First aid kits contained expired thermometer strips.

Newnan (not State licensed, visited August 18, 2009)

          Electrical outlets or power strips in three classrooms lacked protective caps
           (Appendix A, Photograph 6).

Pine Ridge (State licensed, visited August 19, 2009)

          Pea gravel, intended to form a resilient surface at the base of a playground slide, had
           shifted, exposing children to possible injury from a hard dirt surface.

          Raised concrete surfaces at the base of playground equipment exposed children to
           possible injury (Appendix A, Photograph 7).




                                                6
Haralson (not State licensed, visited August 19, 2009)

            A fire ant mound on the playground exposed children to possible poisonous insect
             bites.

            A 6-inch tree stump on the playground exposed children to possible injury.

            The fire extinguisher was not inspected annually as required, but it was inspected the
             day before our visit.

Carver (State licensed, visited August 19, 2009)

            First aid kits contained expired medication and thermometer strips.

Manchester (State licensed, visited August 19, 2009)

            First aid kits contained expired medication and thermometer strips.

            Poison ivy was growing on the playground fence.

            Fire ant mounds were present on the playground.2

            Fire extinguishers were last inspected on August 5, 2008, more than a year before our
             visit.

West Point (State licensed, visited August 20, 2009)

            The fire extinguisher was not inspected annually as required, but it was inspected
             2 days before our visit.

            Fire ant mounds on the playground exposed children to possible poisonous insect
             bites.

Carrollton (not State licensed, visited August 20, 2009)

            Classroom drawers accessible to children contained scissors and other hazardous
             items (Appendix A, Photograph 8).

            Poison ivy and poisonous poke plants were growing in the playground area
             (Appendix A, Photograph 9).

            A raised piece of playground equipment was missing a railing, exposing children to
             possible falls and injuries.

2
  No children were on the playground at the time of our visit. Facility staff informed us that they routinely policed
the playground area and would have treated the fire ant mounds before allowing children to play in the area.


                                                          7
LaGrange (not State licensed, visited August 20, 2009)

          Drawers accessible to children had childproof latches that did not function. The
           drawers contained staplers, scissors, and plastic bags.

          A first aid kit contained an expired thermometer.

          The playground fence gate was off its hinges, allowing children to enter an area
           where they could access an unlocked storage shed (Appendix A, Photograph 10).

Harry Morgan (State licensed, visited August 21, 2009)

          Drawers accessible to children had childproof latches that did not function. The
           drawers contained plastic bags.

          A first aid kit contained an expired thermometer.

          Fire ant mounds on the playground exposed children to possible poisonous insect
           bites (Appendix A, Photograph 11).

          An electrical outlet lacked a protective cap.

Villa Rica (State licensed, visited August 21, 2009)

          First aid kits contained expired medications.

By not ensuring that all facilities were kept free from unsafe materials and equipment, the
Grantee jeopardized the health and safety of children in its care.

INCONSISTENTLY FOLLOWED PROCEDURES

These deficiencies occurred because the Grantee did not consistently follow its existing procedures
to ensure that it complied with Federal and State health and safety regulations.

RECOMMENDATIONS

We recommend that the Grantee consistently follow its existing procedures to ensure that:

      all employee criminal record checks are completed and employee files contain evidence
       of the checks;

      all electrical outlets are covered with protective caps, fire extinguishers are inspected
       annually, and first aid kits are complete and current;




                                                 8
      all unsafe materials and equipment are stored in locked areas out of the reach of children;
       and

      all necessary repairs are completed.

GRANTEE COMMENTS

In its comments on our draft report, the Grantee agreed with our recommendations and described
its actions to address the deficiencies that we identified. The Grantee’s comments are included
as Appendix B.




                                                9
APPENDIXES
                                                                                         Page 1 of 6


APPENDIX A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT
                     SAFETY REGULATIONS




         Photograph 1 – Taken at Franklin on 8/18/2009, showing poison ivy on the
         playground fence.




     Photograph 2 – Taken at Greenville on 8/18/2009, showing the roof over an outdoor
     walkway. The roof was leaking, leaving the concrete walkway wet and slippery.
     The roof had a small tree growing on it and appeared unstable.
                                                                             Page 2 of 6




Photograph 3 – Taken at Hogansville on 8/18/2009, showing liquid bleach, a
hazardous chemical, in an unlocked closet accessible to children.




Photograph 4 – Taken at Verona Rosser on 8/18/2009, showing a past-due
fire extinguisher inspection dated 2/25/2008. The extinguisher should have
been reinspected no later than 2/25/2009.
                                                                           Page 3 of 6




                                                                       `
Photograph 5 – Taken at Verona Rosser on 8/18/2009, showing sagging,
water-stained, and apparently moldy ceiling tiles.




Photograph 6 – Taken at Newnan on 8/18/2009, showing a classroom power strip
containing several outlets without protective caps.
                                                                              Page 4 of 6




  Photograph 7 – Taken at Pine Ridge on 8/19/2009, showing raised concrete
  at the base of playground equipment.




Photograph 8 – Taken at Carrollton on 8/20/2009, showing scissors and other
hazardous items in classroom drawers accessible to children.
                                                                                   Page 5 of 6




Photograph 9 – Taken at Carrollton on 8/20/09, showing a poisonous poke plant
in the playground area.




  Photograph 10 – Taken at LaGrange on 8/20/2009, showing a playground
  fence gate off its hinges, allowing children to enter an area where they could
  access an unlocked storage shed. The gate is propped against the fence.
                                                                           Page 6 of 6




Photograph 11 – Taken at Harry Morgan on 8/21/09, showing hazardous fire
ant mounds on the playground.
                                                                                       Page 1 of 9


                          APPENDIX B: GRANTEE COMMENTS


               COMMUNITY ACTION FOR IMPROVEMENT INC.
                          1380 LAFAYETTE PARKWAY LAGRANGE, GA 30241
                             PHONE: 706-884-2651 FAX: 706-884-2654




January 29, 2010



Peter J. Barbera
Regional Inspector General
        For Audit Services
Department of Health and Human Services
Office of Audit Services
Region IV
Room 3T Forsyth Street, S.W.
Atlanta, GA. 30303- 8909

RE:    Report Number: A-04-09-03531

Dear Mr. Barbera:

I am in receipt of the above referenced reports entitled “Review of Head Start Health and Safety
Standards at Community Action for Improvement, Inc” (CAFI). Per your correspondence CAFI
herein responds to the report.

We want to thank the Inspector General Office (IG) for the professionalism and cooperation
exhibited by Cecil T. Bragg, Lydia F. Burns and Truman M. Mayfield during their visit to CAFI.
The work was detailed and focused from the start of the Entrance Meeting on August 17, 2009 to
the Exit Meeting on August 21, 2009.

First and foremost, I take full responsibility for the Findings in the report. As a Head Start
Reviewer, there are high expectations for me and I should have done a better job of enforcing a
zero tolerance level as it relates to inspections and follow-up. None of the items found should
have escaped my own inspections. There are no excuses to be made.

We respectfully take issue with the Report’s Finding that, “The Grantee’s failure to consistently
comply with these regulations jeopardized the health and safety of children in its care”. Contrary
to these findings, CAFI maintained the health and safety of children in its care, despite the
failures.
                                                                                       Page 2 of 9


There was not a single report of a staff person not being attentive and engaged with children
during the IG inspection of the fourteen Head Start Centers. Children were supervised
irregardless of issues found.

One of the findings pertained to criminal record checks. Two files of CAFI’s 232 employees did
not contain evidence of criminal record checks. Please note, there is evidence CAFI implemented
the requirement for Criminal Record Check as late as 1990, and possibly as early as 1975, both
well in advance of Section 648 A (g) of the Head Start Act (42U.S. C.§ 9843 a (g)). Inspector
Bragg actually reviewed an executed Petty Cash receipt ($15) for a copy of the Criminal Record
Check for one of the two employees. The other employee started shortly before the 1998
implementation of the regulations, but no doubt it should have been caught prior to now.
However, there is no excuse, all 232 Criminal Records checks for Head Start employees in
particular, and for all CAFI employees general, should be on file.

As you know, CAFI corrected all of the Material and Equipment Safety Regulations except one,
prior to the IG team leaving on August 17th. The one exception was the canopy at the Greenville
Head Start Center, with the tree growing from it. Again, there is no excuse for a tree to be
growing from the roof. After we received an expansion grant, we set about renovating the school.
We replaced the roof on the main part of the building housing Head Start classrooms, and
deferred the roof replacement on the rest of the building. As you know, we removed the old
canopy and replaced it. Pictures were forwarded to your office during the process.

The report also cites ceiling tiles at Verona Rosser that needed to be replaced. They have been
replaced, but the work revealed problems with the roof. We will work with the City of Newnan
to try to phase this repair and/or replace it once funds are available.

The IG report is a permanent part of each manager’s “Must Read” list. It will be the featured
topic in Head Start Center meetings beginning today (January 29, 2010). Ms. Angela Jackson-
Owens met with Head Start Manager today and we expect subsequent meetings will take place in
the not-too-distant future in all fourteen Head Start Centers.

The findings in the IG report are unacceptable for this agency. We are a program striving for
excellence in every aspect of our Head Start operations. We are working to license all of Head
Start Centers, and then move toward accreditation through the National Association for the
Education of Young Children (NAEYC).

The IG report is a setback toward those efforts no doubt, but maybe the best thing that has
happened to us. It will be a constant reminder for each Board of Trustee, the Head Start Director
and each Manager, and every Head Start employee how we must be forever vigilant toward the
smallest detail.

We ask the IG to revisit the agency at your leisure, without notice. You will see the work done
and our attention to detail. You will see an agency striving for excellence in everything we do.
                                                                                        Page 3 of 9


Please do not hesitate to contact me if additional information is needed and/or clarifications are
required.


Sincerely,



Jerome Anderson, CAP
Executive Director
                                                                                 Page 4 of 9


                             Findings and Recommendations


   The files on 2 of the Grantee’s two hundred thirty two employees did not contain
    evidence of criminal records.

CAFI instituted the requirements for all employees to have Criminal Records Checks as
late as 1990 and possibly as early as 1975. This requirement is well in advance of the
Section 648 A (g) of the Head Start Act (42 U.S.C. § 9843 a (g)); and Georgia Rules and
Regulations, chapter 591-1-1-.09.

Cecil Bragg was provided a copy of a Petty Cash receipt for $15.00 for one of the
employees’ Criminal Records Check. This meant at worst, the employee went to the
LaGrange Police Department and provided a finger print but staff did not go and pick-
up the document; and/or the Criminal Record Check was misfiled upon receipt.
However, it is certain the employee went to the LaGrange Police Department and
started the process.

We failed to direct the Teacher Assistant to obtain the Criminal Record Check upon
hiring on August 17, 1998.

While there is no excuse for either Criminal Record Check to have been missing,
99.13% of the files reviewed had them. We acknowledge it only takes one to be missing
that could have led an unfortunate situation.

We have built in a redundant system to ensure Criminal Records Checks are picked-up
and filed properly.


                             Material and Equipment Safety

        Grantee’s Compliance with Material and Equipment Safety Regulations

CAFI respectfully takes issue with the following IG report finding under this section:
“In some instances, the facility manager took immediate steps to address our concerns”.

CAFI Managers and staff from the Executive Director to the Custodians took
immediate actions to address Health and Safety concerns identified by the IG team. In
no instance were Health and Safety deemed not important, and left unattended during
the Field Inspections from August 17th through August 21st, or in the forty three year
existence of the agency. We take seriously the ultimate fiduciary responsibility that
anyone can be given, taking care of someone’s child.

To suggest otherwise is not reflective of our mantra during the audit, if items were
founded, “Corrected On Site”. It is a call-to-immediate-action during Head Start
Reviews, if issues are raised during the week.
                                                                                   Page 5 of 9


We scrambled with teams to the sites to correct concerns in each instance.

   Franklin Head Start Center, Franklin, Georgia- Fire extinguishers, which are required to
    be inspected annually, did not have current inspection tags.

    Poison ivy was growing on the playground fence.

    Both items were addressed immediately. Fire extinguisher contractors have
    been directed to maintain annual schedule with or without our notice.

    Staff has been trained on detection of poison ivy and similar weeds that
    pose a threat to our children on the playgrounds

   Greenville Head Start Center, Greenville, Georgia- First aid kits contained expired
    medications.

    Electrical outlets in one classroom and cafeteria lacked protective caps.

    The roof over the outdoor walkway was leaking, leaving the concrete walkway wet and
    slippery. The roof had a small tree growing on it and appeared unstable.

    The first aid kits and electrical outlets were addressed immediately.

    We moved to address the canopy immediately but the cost estimates received from
    August 18th forward required the issuance of a Request For Proposals (RFPs).
    However, children were restricted from the area and playground from August 18th
    until repairs were made.

    The canopy was removed by Nash Roofing. We were assured by Nash there was
    never any danger of the canopy falling. In fact, there were concerns during the
    demolition of the canopy; it might cause damage to the main building as it was being
    removed.

   Hogansville Head Start Center, Hogansville, Georgia- The fire extinguisher was not
    inspected annually as required, but it was on inspected on the morning of our visit.

    An unlocked closet, assessable to children contained liquid bleach, a hazardous chemical.

    We did not make contact with the vendor who services our fire extinguishers to
    schedule him to go to the Hogansville Head Start Center and/or any other centers in
    response to the IG visit.

    Fire extinguisher contractors have been directed to maintain annual schedules with
    or without our notice.

    The closet at this center is locked and staff has been reminded of this requirement.
                                                                                   Page 6 of 9


   Verona Rosser Head Start Center, Newnan, Georgia- Fire extinguisher did not have
    current inspection tags.

    Exits and evacuation routes were not clearly marked.

    Ceiling tiles were sagging and water stained and appeared to be moldy.

    First aid kits contained expired thermometer strips.


    Fire extinguisher contractors have been directed to maintain annual schedules with
    or without our notice.

    Exit and evacuation routes were posted on August 18, 2010.

    The ceiling tiles were immediately replaced but a further inspection revealed
    damage to the roof. We are working to assess the need for a new roof and find
    financing for the City of Newnan building.

    All first aid kits at CAFI were examined and updated.

   Pine Ridge Head Start Center, Ellerslie, Georgia- Pea gravel, intended to form a resilient
    surface at the base of a playground slide, had shifted, exposing children to a possible
    injury from a hard dirt surface.

    Raised concrete surfaces at the base of playground equipment exposed children to
    possible injury.

    The Pine Ridge Head Start Center is located on the campus of Pine Ridge
    Elementary School, a Harris County School System facility. The playground is
    shared with the public school and obviously lacking adequate fall zone padding
    coverage. We are working to address the concrete surfaces at the base of the
    playground equipment and other deficiencies.

   Haralson Head Start Center, Haralson, Georgia- Fire ant mound on the playground
    exposed children to possible poisonous insect bites.

    6-inch tree stump on the playground exposed children to possible injury.

    The fire extinguisher was not inspected annually as required, but it was inspected the day
    before our visit.

    The fire ant mound was removed on August 19, 2009.

    The 6-inch tree stump was ground down and removed.
                                                                                 Page 7 of 9


    I am not sure why the contractor showed up on August 18, 2009, to inspect the fire
    extinguisher here and not at other sites. I simply did a poor job of ensuring annual
    inspections of the fire extinguishers.

   Carver Head Start Center, Hamilton, Georgia- First aid kits contained expired medication
    and thermometer strips.

    All first aid kits have been examined and out-dated medications, thermometers and
    materials have been replaced. First aid kits will be inspected regularly to ensure all
    medications, thermometers and other materials are up-to-date.

   Manchester Head Start Center- Manchester, Georgia- First aid kits contained expired
    medication and thermometer strips.

    Poison ivy was growing on the playground fence.

    Fire ant mounds were present on the playground
    Fire extinguishers were last inspected on August 5, 2008, more than a year before
    our visit.

    All first aid kits have been examined and out-dated medications, thermometers and
    other materials have been replaced. First aid kits will be inspected regularly to
    ensure all medications, thermometers and other materials are kept up-to-date.

    Staff has been trained on the identification of poison ivy and other dangerous weeds.

    Fire ant mounds were removed.

    Fire extinguisher contractors have been directed to maintain annual schedules with
    or without our notice.

   West Point Head Start Center, West Point, Georgia- The fire extinguisher was not
    inspected annually as required, but it was inspected 2 days before our visit.

    Fire ant mounds on the playground exposed children to possible poisonous
    insect bites.

    I am not sure why the contractor showed up on August 18, 2009 to inspect the fire
    extinguisher here and not at other sites. I simply did a poor job of ensuring annual
    inspections of the fire extinguishers.

    Fire extinguisher contractors have been directed to maintain annual schedules with
    or without our notice.

    Fire ant mounds will be removed promptly.
                                                                                   Page 8 of 9


   Carrollton Head Start, Carrollton, Georgia - Classroom drawers accessible to children
    contained scissors and other hazardous items (Appendix, Photograph 8).

     Poison ivy and poisonous poke plants were growing in the playground area;

    A raised piece of playground equipment was missing a railing, exposing children to
    possible falls and injuries.

    Cabinet drawers are locked.

    Staff has been trained on poison ivy and other dangerous plants.

    All playground equipment is scheduled to be inspected on a regular basis.

 LaGrange Head Start Center, LaGrange, Georgia- Drawers accessible to children had
  childproof latches that did not function. The drawers contained staplers, scissors, and
  plastic bags.

    A first aid kit contained an expired thermometer.

    The playground fence gate was off its hinges, allowing children to enter an area
    where they could access an unlocked storage shed.

    All cabinet drawers are locked.

    All first aid kits have been examined and all out-of-date medication removed. First
    aid kits will be inspected on a regular basis to ensure medications, thermometers
    and other materials are up-to-date.

    Staff has been retrained on the importance of playground safety, even during
    repairs. I have been advised this area was being worked-on for some reason, and no
    children were on the playground on August 20, 2009 during the IG visit.

   Harry Morgan Head Start Center, Carrollton, Georgia- Drawers accessible to children
    had childproof latches that did not function. The drawers contained plastic bags.

     A first aid kit contained an expired thermometer.

     Fire ant mounds on the playground exposed children to possible poisonous insect
    bites.

    An electrical outlet lacked a protective cap.

    All cabinet drawers are locked.
                                                                                        Page 9 of 9


       All first aid kits have been examined and all out-of-date medication removed. First
       aid kits will be inspected on a regular basis to ensure medications, thermometers
       and other materials are up-to-date.

       Fire ant mounds were removed.

       Electrical outlets are covered with protective caps.

      Villa Rica Head Start Center, Villa Rica, Georgia- First aid kits contained expired
       medications.

       All first aid kits have been examined and up-to-date medications, thermometers and
       other out-dated materials replaced.

      Newnan (not State licensed, visited August 18, 2009)

        Electrical outlets or power strips in three classrooms lacked protective caps

       Protective caps were placed on the electrical outlet and/or power strips on August
       18, 2009. We are re-evaluating the need for the power strips in the classroom
       settings.

Inconsistently Followed Procedures

CAFI acknowledges existing policies and procedures were not consistently followed. This fact is
unacceptable and will not tolerated.

Recommendations

Corrections were made immediately during the week of August 17-20, 2009. The IG
Recommendations were adopted during that week, although the report was received on January
26, 2010, five months after the review.

The IG Report has been made available to the Board of Trustees, Managers and Staff. It is being
used to re-train staff at every level.

CAFI will consistently strictly enforce and monitor compliance with existing policies and
procedures to ensure compliance with federal and state health and safety regulations.
